Audit Report




OIG-07-034
SAFETY AND SOUNDNESS: OTS Could Further Strengthen Its
Ability to Assess Risks to Thrifts Following Emergencies
March 28, 2007




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................. 3

Results in Brief ................................................................................................ 3

Background ................................................................................................... 4

Findings and Recommendations ......................................................................... 7

        Improvements Could be Made to OTS’s Guidance to Assess the Financial
        Condition of Affected Thrifts Following Emergencies................................... 7
              Recommendations ......................................................................... 9

        Improvements Could be Made to OTS’s Operational Assessment Process for
        Thrifts Following Emergencies .................................................................. 10
               Recommendations ......................................................................... 14


Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................             16
    Appendix     2:      Management Response .........................................................         17
    Appendix     3:      Major Contributors to This Report ...........................................         20
    Appendix     4:      Report Distribution................................................................   21


Abbreviations

    CAMELS               Capital, Assets, Management, Earnings, Liquidity, Sensitivity to risk
    COOP Plan            Continuity of Operations Plan
    FDIC                 Federal Deposit Insurance Corporation
    FFIEC                Federal Financial Institutions Examination Council
    OIG                  Office of Inspector General
    OTS                  Office of Thrift Supervision
    TFR                  Thrift Financial Report
    Treasury             Department of the Treasury




                         OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts                Page 1
                         Following Emergencies (OIG-07-034)
          This page intentionally left blank.




OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 2
Following Emergencies (OIG-07-034)
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General




                           March 28, 2007

                           John M. Reich
                           Director
                           Office of Thrift Supervision

                           During the 2005 hurricane season, Hurricanes Katrina and Rita
                           struck states along the Gulf of Mexico, causing major destruction
                           and disruption in portions of Alabama, Louisiana, Mississippi, and
                           Texas. Following these hurricanes, we conducted an audit to
                           determine (1) how prepared Treasury’s Office of Thrift Supervision
                           (OTS) was to address the needs of thrifts1 and their customers
                           during and immediately following the two hurricanes and (2) OTS’s
                           plans and abilities to assess and manage increased risks to thrifts
                           following the hurricanes.

Results in Brief
                           OTS determined that Hurricanes Katrina and Rita had posed risks to
                           thrifts in the Gulf Coast Region. Short term risks were primarily to
                           the thrifts’ operations, while long term risks were primarily to the
                           thrifts’ financial condition. OTS evaluated these risks by obtaining
                           assessments from thrift management and subsequently performing
                           analyses and examinations. On average, OTS obtained information
                           on four components of financial condition for affected thrifts that
                           ranged between 13 and 68 days following the hurricanes. We
                           found that OTS could improve its procedures to assess the
                           financial condition of affected thrifts following emergencies as:

                           •   OTS guidance did not specifically address obtaining critical
                               financial information from affected thrifts in a consistent
                               manner.

1
    In this report, we refer to all financial institutions regulated by OTS as thrifts.

                           OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts     Page 3
                           Following Emergencies (OIG-07-034)
             •   OTS guidance did not specify timeframes for analyzing the
                 effects of the hurricanes on the affected thrifts’ financial
                 condition.

             We also found areas where OTS could improve its operational risk
             assessment of affected thrifts following emergencies as:

             •   OTS lacked continuity of operations (COOP) plans for field
                 offices in 2 of its 4 regions.
             •   OTS had difficulty establishing communication with certain
                 thrifts following Hurricane Katrina.

             We are recommending that OTS: (1) develop a process that will
             enable it to obtain critical information about thrifts’ financial
             conditions following emergencies in a consistent manner; (2)
             following an emergency, determine timeframes for analyzing the
             affected thrifts financial condition, based on the gravity of the
             situation; (3) develop COOP plans for its field offices; and (4)
             maintain alternative contact information for thrift personnel. OTS
             agreed to implement the recommendations in its response to our
             report, which is provided as appendix 2.

Background
             Hurricane Katrina made landfall on the Gulf Coast on August 29,
             2005, with Hurricane Rita following on September 24, 2005.
             These hurricanes, two of the most intense hurricanes ever recorded
             in the nation’s history, caused major destruction and disruption to
             the infrastructure in portions of Alabama, Louisiana, Mississippi,
             and Texas. Over 80 percent of the city of New Orleans flooded and
             more than 800,000 citizens, affected by the storms, were forced
             to live outside of their homes.

             OTS is the primary regulator of all federal and many state-chartered
             thrift institutions, which include savings banks and savings and
             loan associations. Its mission is to supervise thrifts and their
             holding companies in order to maintain their safety and soundness
             and compliance with consumer laws and to encourage a
             competitive industry that meets the nation’s financial services
             needs.


             OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 4
             Following Emergencies (OIG-07-034)
                       In keeping with its mission, OTS had to determine which thrifts
                       were affected by Hurricanes Katrina and Rita and what types of
                       assistance the thrifts might require as a consequence. OTS, the
                       other federal financial institution regulators, and the Federal
                       Financial Institution Examination Council (FFIEC)2 issued
                       information that addressed a variety of issues that arose following
                       the hurricanes. The topics covered included assistance to affected
                       customers, availability of additional supervisory guidance on
                       regulatory and reporting issues, establishment of Community
                       Reinvestment Act credits to stimulate support for disaster relief in
                       the financial industry,3 and examination guidance for regulatory
                       personnel for institutions affected by Hurricane Katrina.4

                       FFIEC-issued guidance specifically intended to help financial
                       institutions recover from the hurricanes addressed such topics as
                       granting extensions to financial institutions for filing 3rd quarter
                       Thrift Financial Reports (TFRs);5 permitting financial institutions to
                       use estimates to determine their loss reserves for the 3rd quarter
                       TFR until a determination on the collectibility of loans was
                       confirmed; allowing institutions, for liquidity purposes, to
                       immediately sell securities designated as held to maturity;6 and
                       exempting institutions from appraisal requirements for real estate
                       transactions in designated counties affected by the hurricanes.7

                       OTS coordinated with thrifts’ Technology Service Providers to
                       expedite the repair of data lines, worked through the Financial and

2
  FFIEC is an interagency body empowered to prescribe uniform principles, standards, and report forms
for the federal examination of financial institutions by the Board of Governors of the Federal Reserve
System, the Federal Deposit Insurance Corporation, the National Credit Union Administration, the Office
of the Comptroller of the Currency, and OTS.
3
  OTS CEO Letter 232, “Community Reinvestment Act (CRA) Consideration for Activities Related to
Hurricanes Katrina and Rita,” (Dec. 20, 2005).
4
  OTS CEO Letter 234, “Interagency Supervisory Guidance for Institutions Affected by
Hurricane Katrina,” (Feb. 3, 2006).
5
  Every federally insured savings institution regulated by OTS files a quarterly TFR. These institutions
are required to file a consolidated TFR that includes detailed information about the institution's
operations and financial condition as of the close of business on the last day of the calendar quarter.
Five thrifts availed themselves of extensions for their 3rd quarter TFR filings and filed between 14 and
45 days after the deadline.
6
  “FFIEC Agencies Announce Additional Guidance for Financial Institutions in Response to
Hurricane Katrina and Rita” (FFIEC press release, Oct. 6, 2005).
7
  OTS CEO Letter 229, “Appraisal Exceptions in Major Disaster Areas” (Oct. 12, 2005).


                       OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts        Page 5
                       Following Emergencies (OIG-07-034)
                       Banking Information Infrastructure Committee (FBIIC) to provide a
                       military escort for thrift personnel into restricted areas, worked
                       with the Federal Reserve to provide armored car service for thrifts
                       in affected areas, and posted information on its web site to help
                       thrifts and consumers affected by Hurricanes Katrina and Rita.

                       OTS also participated in the FFIEC’s lessons learned review for
                       Hurricane Katrina. In particular, the review identified the
                       importance of alternate means of communication. OTS is
                       considering requiring thrifts to maintain emergency telephone
                       numbers at their data provider to ensure OTS contact following an
                       emergency.

                       A total of 50 OTS-supervised financial institutions were in the
                       areas affected by Hurricanes Katrina and Rita – 26 in Louisiana, 5
                       in Mississippi, and 19 in Texas. Of this total, OTS identified 19
                       institutions that it considered affected by the storms. Of these, 18
                       were considered affected8 by Hurricane Katrina and 1 by Hurricane
                       Rita. OTS contacted the affected thrifts to collect information on
                       their financial condition and subsequently conducted analyses that
                       covered the financial effects of the hurricanes on the thrifts’
                       CAMELS ratings.9 Assets of the affected thrifts totaled $4 billion
                       and deposits $2.9 billion respectively. As of December 31, 2005,
                       12 of the affected thrifts had increased their combined loss
                       reserves in the preceding 6 month period by $20 million,
                       representing 3.9 percent of the combined June 30, 2005, capital
                       levels for the 19 affected thrifts.10 These 12 thrifts had all been
                       affected by Katrina.




8
  OTS considered a thrift to have been affected if it experienced any disruption of business due to the
hurricanes. Office closure was commonly used to determine whether an institution had experienced a
disruption of business and had therefore been affected by the storms.
9
  The Uniform Financial Institutions Rating System was adopted by the FFIEC on November 13, 1979.
The rating system, called CAMELS, is used to evaluate the safety and soundness of a savings
association or a bank. CAMELS is an acronym for the six component elements that are evaluated:
capital, asset quality, management, earnings, liquidity and sensitivity to risk. Each of these elements is
rated on a scale of 1 to 5.
10
   A financial institution’s loss reserve is an estimate of the amount needed to offset possible losses on
loans. After the hurricanes, financial institution’s estimated the storm related losses to their loan
portfolios and increased loss reserves to cover the estimated losses.


                       OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts           Page 6
                       Following Emergencies (OIG-07-034)
Findings and Recommendations

                       Emergencies pose serious risks to the safety and soundness of
                       thrifts. In the short term, the risks are primarily to the thrifts’
                       operations while long term, the risks are primarily to the thrifts’
                       financial condition. OTS’s supervisory responsibility to determine
                       the thrifts’ safety and soundness is therefore paramount following
                       emergencies.

                       Improvements Could be Made to OTS’s Guidance to
                       Assess the Financial Condition of Affected Thrifts
                       Following Emergencies

                       The OTS Examination Handbook11 states that although it may be
                       sufficient for OTS’s monitoring of non-high-risk12 thrifts to consist
                       of quarterly compliance and summary monitoring reports, OTS’s
                       monitoring of high-risk thrifts should be more extensive and more
                       frequent. The Examination Handbook further states that all phases
                       of the regulatory process, from off-site monitoring between
                       examinations to the final report of examination (ROE), involve some
                       form of interpretation of financial data through careful and
                       questioning study.

                       OTS’s Examination Handbook does not contain timeframes by
                       which OTS should assess and report on the condition of thrifts
                       after emergency events, such as Hurricanes Katrina and Rita.
                       OTS identified 19 thrifts as having been adversely affected by the
                       hurricanes. OTS was in contact with these thrifts on an ongoing
                       basis. OTS initially used standardized daily summaries to obtain
                       operational assessments of the affected thrifts following the
                       hurricanes, and then transitioned to narrative weekly summaries to
                       monitor the overall condition of the thrifts including their financial
                       condition. While, the daily operational assessments gave an overall
                       view of the thrifts’ operational condition, depending on the week,
                       the weekly updates focused on one or more elements of the thrifts’

11
  The OTS Examination Handbook (May 2006).
12
  High-risk thrifts may include those that have a higher overall risk profile based on such factors as
asset quality, asset composition, earnings and operations, liquidity, or capital.


                       OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts          Page 7
                       Following Emergencies (OIG-07-034)
                     operational or financial condition. As a result these weekly
                     summaries did not consistently cover all elements of thrifts’
                     financial condition. OTS also obtained financial condition from the
                     thrifts’ 3rd quarter TFRs. On average, it took OTS 68 days after
                     hurricane landfall to obtain post storm information on capital, 62
                     days to obtain post storm earnings-related information, 50 days to
                     obtain post storm information on asset quality, and 13 days to
                     obtain post storm information on liquidity from the 19 adversely
                     affected thrifts. OTS informed us, that with the exception of 1
                     thrift, they considered capital levels and bank management to be
                     sound. It should be noted that as of June 30, 2006, none of these
                     19 financial institutions had failed as a result of Hurricanes Katrina
                     and Rita.

                     The information provided by the thrifts in their communications
                     with OTS was often limited and consisted of initial estimates. For
                     example, in a report dated October 20, 2005, 1 thrift reported that
                     it had performed a zip code analysis to determine the potential
                     losses caused by the hurricanes. The thrift estimated the potential
                     for losses at approximately $6 million, but “management was sure
                     that the actual loss would not be that great.” OTS also performed
                     an initial review of the affected thrifts’ potential exposure to credit
                     and liquidity risks in late September 2005. This review provided
                     limited information, covered only 12 of the 19 adversely affected
                     thrifts, used 2003 Home Mortgage Disclosure Act data and June
                     2005 TFR data.13

                     OTS subsequently performed two sets of analyses on the financial
                     condition of adversely affected thrifts. OTS’s first set of analyses
                     of the affected thrifts’ financial condition appeared in a report
                     dated January 11, 2006, or 4½ months after Hurricane Katrina.
                     These analyses consisted of 3rd quarter 2005 TFR information
                     together with information provided by thrift officials and did not
                     always include an assessment of all components of the thrifts’
                     CAMELS ratings. While FFIEC-issued guidance permitted
                     institutions to use estimates to determine their loss reserves for the
                     3rd quarter TFR until a determination on the collectibility of loans
                     was confirmed, only 1 affected thrift made a provision for losses in
                     its 3rd quarter TFR filing, representing less than 2 percent of its
13
  The Home Mortgage Disclosure Act (HMDA), enacted by Congress in 1975 and implemented by the
Federal Reserve Board's Regulation C, requires lending institutions to report public loan data.

                     OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 8
                     Following Emergencies (OIG-07-034)
                      mid-year capital. 11 of the other thrifts made a provision for losses
                      in their 4th quarter TFR filings. For 2 of these thrifts, these 4th
                      quarter provisions represented more than 18 percent of their mid-
                      year capital.

                      OTS deferred all regular examinations until thrifts had time to
                      restore operations and OTS examiners had time to work through
                      personal affairs. It took OTS an average of nearly 6 months after
                      Katrina, to complete a comprehensive on-site set of analyses of the
                      financial condition of affected thrifts, while off-site analysis was
                      ongoing. The analysis conducted through on-site examinations
                      covered 17 of the 19 affected thrifts as OTS determined that 1
                      thrift was so minimally affected by the hurricanes as not to warrant
                      an examination, and another thrift was no longer regulated by OTS
                      at that time. OTS performed 13 special limited scope examinations
                      and 4 comprehensive federal examinations conducted between 4½
                      to 8 months after Katrina on these remaining 17 affected thrifts.14
                      Prior to Hurricane Katrina, OTS had identified 1 thrift as being in a
                      less than satisfactory financial condition. After Hurricane Katrina,
                      OTS assigned an examiner to remain on site at the thrift to monitor
                      the condition of the thrift.

                      By not using a structured or standardized approach to gathering
                      financial condition information following an emergency, OTS might
                      not obtain critical information about the thrifts’ financial conditions
                      for further analysis in a consistent manner.

                      Recommendations

                      We recommend that the Director of OTS do the following:

                      1. Ensure that OTS develops a process that will enable the
                         collection of critical information about thrifts’ financial
                         conditions following an emergency in a consistent manner. As



14
  OTS undertakes comprehensive exams with limited scope whenever it needs to conduct an
examination outside the normal cycle. A comprehensive examination with limited scope can be
conducted on- or off-site and CAMELS ratings are not required. A comprehensive federal examination is
conducted on-site every 12-18 months, based on size and condition of the thrift. It is sufficient to
assess a thrifts composite and component CAMELS ratings.


                      OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts      Page 9
                      Following Emergencies (OIG-07-034)
                          part of this process, OTS should consider developing a
                          structured questionnaire for obtaining critical information.

                      2. Ensure that, following an emergency, OTS determine and
                         establish appropriate timeframes based on the gravity of the
                         situation, for analyzing the effects on affected thrifts financial
                         condition.

                      Management Response

                      OTS concurred with these two recommendations. Its supervision
                      staff in Washington will work with the Regional offices to develop
                      a structured approach for collecting critical information from thrifts
                      following an emergency. OTS will also establish appropriate
                      timeframes based on the gravity of the situation, for analyzing the
                      effects on affected thrifts financial condition. Its staff will complete
                      this work by July 31, 2007.

                      OIG Comment

                      Management’s planned corrective action is responsive to the intent
                      of our recommendations.

                      Improvements Could be Made to OTS’s Operational
                      Assessment Process of Thrifts Following Emergencies

                      Presidential Decision Directive 67 requires federal agencies to
                      establish continuity of operations (COOP) plans,15 and Federal
                      Preparedness Circular 65 provides guidance for use by federal
                      executive branch agencies and their subcomponents in developing
                      COOP plans to facilitate performance of essential functions during
                      any emergency or situation that may disrupt normal operations.16
                      The COOP plan elements outlined in the circular apply to all levels

15
   Presidential Decision Directive 67 (PDD 67), “Enduring Constitutional Government and Continuity of
Government Operations” (Oct. 21, 1998), required Federal agencies to develop COOP plans for
essential operations. The plans are to identify those requirements, such as emergency communications,
establishing a chain of command, and delegation of authority, necessary to support the primary function
of the agency.
16
   Federal Preparedness Circular 65, “Federal Executive Branch Continuity of Operations (COOP),” was
issued by the Federal Emergency Management Agency on June 15, 2004 (superseding the previous
version, dated July 26, 1999).

                      OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts      Page 10
                      Following Emergencies (OIG-07-034)
                        of executive branch organizations, regardless of location.
                        According to the circular: (1) the COOP plans of agencies and their
                        subcomponents must include plans and procedures that delineate
                        essential functions; (2) specify succession to office and emergency
                        delegation of authority; (3) provide for the safekeeping of vital
                        records and databases; (4) identify alternate operating facilities; (5)
                        provide for interoperable communications; (6) and validate the
                        capability through tests, training, and exercises. In particular,
                        COOP plans should contain a human capital component
                        encompassing methods of employee communication. All federal
                        agencies, regardless of location, are to have in place a viable COOP
                        capability to ensure continued performance of essential functions
                        from alternate operating sites during any emergency or situation
                        that may disrupt normal operations. The absence of field office
                        COOP plans may have impeded OTS’s ability to quickly establish
                        communication with key OTS Field Office personnel as well as with
                        the thrifts themselves.

                        Also, under the FFIEC “Supervisory Emergency Communication
                        Protocols,”17 each member agency is to establish and maintain the
                        capability of rapidly communicating during emergencies with the
                        institutions over which it has primary supervisory authority. Gaps in
                        OTS’s COOP plans and the lack of alternative methods of
                        communication increase the risk that OTS will not be able to
                        communicate effectively with its field office staff and thrifts during
                        emergencies.

                        We found the following areas where OTS could strengthen its
                        ability to assess risk following emergency events:

                        •    Field Office Continuity of Operations Plans.
                        •    Communication with thrifts following emergencies.

                            Field Offices Lacked Continuity of Operations Plans

                        During our audit, we found that OTS did not have COOP plans for
                        its field offices and field office staff. Although OTS had established
                        COOP plans at the headquarters and regional office levels, neither
                        the headquarters nor the regional office COOP plans were activated

17
     FFIEC “Supervisory Emergency Communication Protocols” (updated Mar 31, 2005).

                        OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 11
                        Following Emergencies (OIG-07-034)
                       during Hurricanes Katrina and Rita because those locations were
                       not affected by the storms.

                       OTS established a COOP plan at the headquarters level in March
                       2003. COOP plans were also established at the regional office
                       level. OTS did not have a COOP plan covering its New Orleans field
                       office personnel at the field office facility or at off-site locations
                       and, as a result, did not have procedures addressing
                       communications between OTS field office personnel and other OTS
                       personnel in emergencies.

                       We reviewed COOP plans for 2 of OTS’s 4 regions and found that
                       they did not include COOP plans for field offices in these regions.
                       Furthermore, OTS could not provide us COOP plans for these field
                       offices, including the region covering areas affected by the
                       hurricanes. OTS management initially stated that COOP plans for
                       small field offices were not necessary because of their intermittent
                       use. However, OTS management subsequently informed us that
                       they had identified a need for COOP plans for all field offices.

                       Without a field office COOP plan containing alternate procedures
                       for contacting field office personnel, it took OTS regional office
                       personnel 3 to 4 days after Hurricane Katrina to contact its New
                       Orleans field office personnel. While communication efforts were
                       hampered by power outages and loss of telephone service, lack of
                       timely communication among OTS personnel during emergencies
                       could increase the risk of disruptions to the operations of affected
                       thrifts and delay resumption of normal service.

                         OTS Had Difficulty Establishing Communication with Thrifts
                         Following Hurricane Katrina

                       OTS’s Midwest Regional Office18 started assessing Hurricane
                       Katrina’s impact on thrifts on August 30, 2005, the day after the
                       hurricane made landfall. The contact information that OTS
                       maintained for thrift personnel consisted mostly of thrift office

18
   OTS has four regional offices: the Midwest Regional Office, in Dallas, Tex.; the Southeast Regional
Office, in Atlanta, Ga.; the Northeast Regional Office, in Jersey City, N.J.; and, covering the West, the
San Francisco Regional Office, in San Francisco, Ca. The Midwest Regional Office supervises
institutions in Arkansas, Iowa, Kansas, Louisiana, Minnesota, Missouri, Mississippi, Nebraska,
Oklahoma, Tennessee, Texas, and Wisconsin.

                       OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts         Page 12
                       Following Emergencies (OIG-07-034)
telephone numbers and thrift office e-mail addresses. As a result of
damage to power lines and telephone lines caused by Hurricane
Katrina, OTS had difficulty contacting thrifts through these
channels. OTS staff who attempted the contacts estimated that it
took approximately a week to make contact with all the potentially
affected Katrina thrifts and that establishing contact was very
difficult in the first few days after Hurricane Katrina made landfall.
In many cases, OTS was able to contact thrifts only by calling their
Technology Service Providers, establishing that the thrift had been
in contact with the Technology Service Provider, and implementing
system backup plans, and obtaining from the Technology Service
Provider emergency contact information that had been provided by
the thrift.

OTS developed reports providing information gained from contact
with the thrifts on their operational condition. The September 1,
2005 report showed that, as of that date, OTS had been unable to
contact 8 of 18 thrifts. The next report provided was dated
September 6, 2005; by that date, all of the 18 thrifts had been
contacted.

Thrifts could also have initiated contact with OTS. Under normal
circumstances, according to OTS personnel, thrifts have their local
field manager’s cell phone number and e-mail address, their
examiners’ contact information, and OTS regional office contact
information. However, OTS personnel were unsure exactly what
contact information thrifts had in their contingency plans. Because
of the infrastructure damage caused by Hurricane Katrina, thrifts
would have found it difficult to contact OTS personnel by
conventional means using non-emergency contact information.
Furthermore, OTS also informed us that the initial priority for the
thrifts was to ensure the safety of their staff, rather than being
operational.

As a result of the communication difficulties experienced after
Katrina, OTS took steps to ensure that its personnel had alternate
emergency contact information for potentially affected thrifts in
preparing for Hurricane Rita. While Rita had a lesser impact, OTS
contacted all the thrifts affected by Rita within 3 days of landfall.
OTS subsequently developed suggested actions from lessons
learned following Katrina. In particular, OTS suggested including

OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 13
Following Emergencies (OIG-07-034)
thrifts’ needs as part of its COOP plans, requiring thrifts to
maintain emergency telephone numbers at their technology service
providers to ensure contact by regulators, and recommending
thrifts to maintain a satellite or cellular telephone with a remote
area code.

Recommendations

We recommend that the Director of OTS do the following:

3. Ensure that field offices are included in its COOP planning to
   address potential disruptions of service during emergencies at
   those locations.

4. Ensure that OTS maintains current alternative contact
   information for thrifts and alternative channels of
   communication for use by OTS personnel to contact thrifts
   during emergencies. OTS should also encourage thrifts to
   contact OTS during emergencies and provide thrifts alternative
   OTS contact information to facilitate communications.

Management Response

OTS indicated that it has initiated efforts to comply with these two
recommendations. OTS will complete this work by July 31, 2007.

OIG Comment

Management’s planned corrective action is responsive to the intent
of our recommendations.




OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 14
Following Emergencies (OIG-07-034)
                                      * * * * *


We appreciate the courtesies and cooperation provided to our staff during
the audit. If you wish to discuss this report, you may contact me at (202)
927-0382. Major contributors to this report are listed in appendix 4.




Alain Dubois
Director, Banking Audits




      OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 15
      Following Emergencies (OIG-07-034)
Appendix 1
Objectives, Scope, and Methodology




Our audit objectives were to (1) determine the preparedness for
and responsiveness of OTS with respect to addressing the needs of
thrifts and their customers during Hurricanes Katrina and Rita and
(2) determine OTS’s plans and abilities to assess and manage
increased risks to thrifts following the hurricanes.

To accomplish these objectives, we performed the following
activities:

•   Conducted interviews with OTS personnel from OTS
    headquarters in Washington, D.C., the Midwest Regional Office
    in Dallas, Tex, and the OTS New Orleans Field Office
•   Reviewed OTS documentation obtained from thrifts and OTS
    personnel
•   Reviewed Reports of Examination and Visitation Reports
•   Reviewed headquarters and regional office COOP plans
•   Reviewed Uniform Thrift Performance Reports for thrifts in the
    affected areas

We performed our fieldwork from November 2005 through August
2006. We performed our audit in accordance with generally
accepted government auditing standards.




OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 16
Following Emergencies (OIG-07-034)
Appendix 2
Management Response




OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 17
Following Emergencies (OIG-07-034)
Appendix 2
Management Response




OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 18
Following Emergencies (OIG-07-034)
Appendix 2
Management Response




OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 19
Following Emergencies (OIG-07-034)
Appendix 3
Major Contributors to This Report




Office of Inspector General, Office of Audit
Alain Dubois, Director, Banking Audits
Esther Tepper, Program Analyst
Andras Schneider, Referencer
Bobbie Gambrill, Auditor
Vicky F. Liu, Auditor




OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 20
Following Emergencies (OIG-07-034)
Appendix 4
Report Distribution




Department of the Treasury

Office of Accounting and Internal Control
Office of Strategic Planning and Performance Management

Office of Thrift Supervision

Director, Office of Thrift Supervision
Liaison Officer

Office of Management and Budget

OIG Budget Examiner




OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts   Page 21
Following Emergencies (OIG-07-034)
